No. 19-814
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TONY DESHAWN MCCOY, PETITIONER
v.
UNITED STATES AMERICA
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION via email and first-class mail,
postage prepaid, this 14th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5868 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 14, 2020.

May 14, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0814
MCCOY, TONY DESHAWN
USA

JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
JOHN WESLEY HALL
NATIONAL ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS
1202 MAIN STREET
SUITE 210
LITTLE ROCK, AR 72202
501-371-9131
FORHALL@AOL.COM
PAMELA S. KARLAN
STANFORD LAW SCHOOL
SUPREME COURT LITIGATION CLINIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-725-4851
KARLAN@STANFORD.EDU
ANTHONY MARTINEZ
FEDERAL DEFENDERS OF WESTERN NORTH
CAROLINA, INC.
129 WEST TRADE STREET
SUITE 300
CHARLOTTE, NC 28202-0000
ANTHONY_MARTINEZ@FD.ORG

